                      Performance Audit Report




            504 Recovery Act loans Were Originated and

                Closed in Accordance with SBA Policies




                            For Official Use Only




September 27, 2012                                       Report Number 12-23R
                                  u.s. Small Business Administration
                                      Office of Inspector General
                                       Washington, D.C. 20416




                                                                                       REPORT TRANSMITTAL




DATE: 	         September 27, 2012

To: 	           Grady Hedgespeth
                Director, Office of Financial Assistance

                John A. Miller 

                Director, Office of Financial Program Operations 


SUBJECT: 	      Report on whether the 504 Recovery Act Loans Were Originated and
                Closed in Accordance with SBA Policies

This report presents the results of our audit of the origination and closing of 504 Recovery Act loans.
The objective of this audit was to determine whether 504 Recovery Act loans were originated and
closed in accordance with Small Business Administration policies and procedures.

We request that you provide your management decision for each recommendation on the attached SBA
form 1824, Recommendation Action Sheet, by October 27, 2012 (30 days after the final report date).
Your decision should identify the specific actions taken or planned for each recommendation and the
target dates for completion.

We appreciate the cooperation and courtesies of the Small Business Administration extended to the
staff during this audit. Please direct any questions to me at (202) 205-6587 or Terry Settle, Director,
Credit Programs Group at (703) 487-9940.


                                                    ***



/S/ original signed
John K. Needham
Assistant Inspector General for Auditing
                      EXECUTIVE SUMMARY:
                      504 Recovery Act Loans Were Originated and Closed in Accordance
                      with SBA Policies

What DIG Audited                                        closing process. Specifically, it will (1) analyze the
                                                        four loans with deficiencies and will propose
The SBA's 504 Program provides small businesses         corrective actions to the DIG, (2) increase credit
with long-term, fixed-rate financing for the purchase   training mentoring of loan officers, and (3) notify the
of land, buildings, machinery, or other fixed assets.   Improper Payments Review Team of the improper
The DIG audited a sample of 504 Program Recovery        504 loan guaranties identified during the audit.
Act loans that were approved between June 1, 2009
and January 31, 2010. We selected all 10 loans          What OIG Found
involving refinancing from a universe of 1,141 loans.
We then selected a random sample of 50 loans from       The SBA generally originated and closed 504
the remaining 1,131 loans.       The fieldwork was      Recovery Act loans in accordance with SBA policies
performed by RER Solutions, Inc., (RER) under           and procedures. However, we identified origination
contract with the DIG, with oversight and follow-up     and closing deficiencies in 3 of the 50 randomly
by the DIG. The contractor reviewed Small Business      sampled loans reviewed.         This resulted in
Administration (SBA) loan files using an DIG            unsupported or inappropriate loan approvals of
checklist. For all loans examined, RER also reviewed    $414,000.
information in Colson's Services Corporation CDC
Connection and SBA's Electronic Loan Information        All three loans with inappropriate or unsupported
Processing System (ELlPS) to determine the status of    loan approvals were regular 504 Certified
the loans in the sample.                                Development Company (CDC) loans approved by the
                                                        SBA. The deficiencies in the three loans included:
OIG Recommendations
                                                            •	     Unsupported or inaccurate repayment
The DIG recommended a total of three actions, all of               projections;
which were addressed to the Director of the Office          •	     Collateral shortfalls; and
of Financial Program Operations, specifically:              •	     Inadequate equity injections.

•	   Determine how the deficiencies in the four SBA­    In addition, one loan reviewed-in our judgmental
     approved loans occurred, and take corrective       sample of ten loans-also had questionable
     action to prevent similar deficiencies in other    repayment projections.          This loan had an
     SBA-approved 504 loans.                            inappropriate approval of $1,147,000. As of
•	   Provide feedback to the SBA loan officers who      July 31, 2012, all four loans were current.
     approved the 504 loans in which deficiencies
     were identified.
                                                                                             Loan Approval
•	   Notify the improper payment review team of                    Deficiency
                                                                                                Amount
     the improper 504 loan guaranties to ensure the     Lacked creditworthiness due to
     proper estimation of improper payments in the      inaccurate repayment ability
     504 Loan Program.                                                                         $150,000
                                                        analysis

Agency Comments and Actions Taken                       Questionable repayment
                                                                                              $1,147,000
                                                        projections
The SBA agreed with two of the recommendations          Loan approved with collateral
                                                                                               $161,000
and partially agreed with one recommendation. The       shortfall
SBA said it has taken, or will take, steps to address   Insufficient equity contribution       $103,000
many of our concerns in the 504 originating and                      TOTAL                    $1,561,000
Table of Contents 


Introduction ................................................................................................................................5 


   RESULTS ..................................................................................................................................7 


   Finding: 504 Program Recovery Act Loans were Generally Originated and Closed in

   Accordance with SBA's Policies and Procedures ....................................................................... 7 


      The SBA Approved Two Loans that Lacked Creditworthiness ..............................................8 


      The SBA Approved a Loan with a Collateral Shortfall ..........................................................9 


      The SBA Approved a Loan as an Existing Business Instead of As a New Business 


      Transaction Resulting in an Insufficient Equity Contribution ...............................................9 


   Conclusion .............................................................................................................................10 


   Recommendations ................................................................................................................10 


Appendix I: Scope and Methodology ........................................................................................13 


Appendix II Randomly Sampled Loans .......................................................................................14 


Appendix III: Judgmentaliy Sampled Loans ...............................................................................15 


Appendix IV: Loans with Deficiencies........................................................................................16 


Appendix V: Management Comments .......................................................................................17 

Introduction

This report presents the results of our audit of the origination and closing of
504 Development Company Program (504 Program) loans made under the American
Recovery and Reinvestment Act (Recovery Act). The Recovery Act and Office of
Management and Budget (OMB) guidance encouraged Offices of Inspectors General to
conduct oversight of potential risks posed by Recovery Act programs implemented by
their respective agencies. Accordingly, we conducted this audit due to concerns that
the Small Business Administration (SBA or the Agency) and companies participating in
the Certified Development Company (CDC) Program would not exercise due diligence in
originating and closing Recovery Act 504 loans. The concerns were due to the
temporary fee elimination for the 504 Loan Program and the CDCs being reimbursed for
processing fees by the SBA instead of charging the fees to the borrowers.

The objective of our audit was to determine whether 504 program loans, disbursed
pursuant to the Recovery Act, were originated and closed in accordance with SBA
policies and procedures, and to identify any evidence of suspicious activity. To answer
our objective, we selected all 10 loans involving refinancing from the universe of 1,141
Recovery Act 504 loans that had been approved between June I, 2009 and
January 31, 2010 with at least one disbursement as of January 31, 2010. We then
selected a random sample of 50 loans from the remaining 1,131 loans. The fieldwork
was performed by RER Solutions, Inc., (RER) under contract with the OIG, with follow-up
by the OIG. The contractor reviewed Small Business Administration (SBA) loan files
using a standard OIG review methodology that we prepared based on applicable
Standard Operating Procedures. For all loans examined, RER also reviewed information
in Colson's Services Corporation CDC Connection and SBA's Electronic Loan Information
Processing System (ELlPS) to determine the status of the loans in the sample. We also
interviewed SBA's Directors of the Fresno and Little Rock Servicing Centers; the Director
of the Sacramento Loan Processing Center; and the Director, Office of Financial Program
Operations.

We conducted this audit between March 2010 and May 2012 in accordance with
Generally Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Staff turnover and limited resources created
delays in completing fieldwork and issuing the audit report.

Background

The SBA's 504 Program provides small businesses with long-term, fixed-rate financing
for the purchase of land, buildings, machinery, or other fixed assets. The SBA issues
these loans through a partnership with CDCs and private sector third-party lenders.
The SBA then funds the loans through the issuance of government guaranteed
debentures. The CDCs are non-profit corporations that the SBA certifies and regulates


                                    5

                  to package, process, close, and service CDC loans. Section 504 loans are financed as
                  outlined in Table 1.

                  A 504 project has three main partners and generally: a Third Party Lender provides
                  50-percent or more of the financing; a CDC provides up to 40-percent of the financing
                  through a 504 debenture (guaranteed 100-percent by SBA); and a borrower injects at
                  least lO-percent of the financing. This standard financing and other variations of 504
                  Program financing are shown in Table 1.

                  Table 1 504 loan Financing Structure
                                          Standard Financing           New Business or          Both New Business
                                              Structure               Limited or Special          and Limited or
                                                                      Purpose Propertl           Special Purpose
                                                                                                     Property
                   rd
                  3 Party Lender                 50%                          50%                       50%
                  CDC/SBA                        40                           35                        30
                  Borrower                       10                           15                        20
                  Source: Standard Operating Procedure (SOP) 50 10

                  Congress enacted the Recovery Act on February 17, 2009 to stimulate the u.S. economy
                  and increase credit to small businesses. Changes authorized in the Recovery Act and
                  subsequent legislation temporarily eliminated 504 upfront fees and expanded the
                  program to allow refinancing under certain circumstances.

                  Section 501 of the Recovery Act authorized the temporary elimination of two program
                  fees for eligible loans approved through the Agency's section 504 Development
                  Company Program on or after February 17, 2009. Borrowers no longer were required to
                  pay Third-Party Participation fees or CDC processing fees. Further, the SBA was required
                  to reimburse the CDCs for the waived processing fees.

                  Based on established criteria, including loan volume and quality, the SBA selects CDCs to
                  participate in a streamlined loan application processing procedure known as the
                  Abridged Submission Method (ASM). Under this process, the CDC is required to collect
                  and retain all exhibits to SBA Form 1244, Application for Section 504 Loan. However, the
                  CDC is only required to submit certain documents to the SBA with the application.
                  The CDC files, including all of the exhibits, or supporting documents, must be available
                  for review by the SBA at any time. This process causes the SBA to rely heavily on the
                  CDC's analysis; therefore, continued quality performance of the CDC's portfolio is
                  essential.


1 SOP 50 10 5(A), effective date March 1, 2009, identifies a New Business as a business that is 2 years old or less at

the time the loan is approved. This includes a change of ownership because it will result in new, unproven
ownership/management and increased debt unrelated to business. SOP 5010 5 (B), effective date October 1,
2009, modifies this to state that a business that is more than 2 years old at the time the loan is approved may be
considered a New Business if it is a change of ownership that will result in new, unproven ownership/management
and increased debt unrelated to business operations. If there is a change of ownership, the CDC must review the
management and level of debt and make a determination whether an additional borrower's contribution of 5% is
necessary. A limited or Special Purpose Property is a limited-market property with a unique physical design,
special construction materials, or a layout that restricts its utility to the use for which it was built.

                                                          6
                   Review of Internal Controls

                   The SBA's Standard Operating Procedure (SOP) 0002, Internal Control Systems, provides
                   guidance on the implementation and maintenance of effective systems of internal
                   control as required by OMB guidance. According to OMB Circular A-123, effective
                   systems of internal control improve the accountability and effectiveness of federal
                   programs and operations by establishing, assessing, correcting, and reporting on
                   internal controls. To assess the internal controls relevant to our objectives, we
                   reviewed SBA SOPs 50 10 5(A) and 50 10 5(B).

                   We identified minor internal control weaknesses in the Agency's origination of 504
                   Program Recovery Act loans. We found that documentation supporting requests for
                   loans was not always sufficient. Specifically, we identified four instances where the SBA
                   accepted CDC loan requests with unsupported or inaccurate repayment projections,
                   insufficient collateral, or insufficient equity contributions.

                   Implementing the recommendations in this report will address the identified minor
                   internal control weaknesses, and improve the Agency's origination and closing of 504
                   loans. We will provide a copy of the final report to the senior official responsible for
                   internal controls in the Office of the Chief Financial Officer.

                   RESULTS


                     Finding: 504 Program Recovery Act Loans were Generally Originated and
                     Closed in Accordance with SBA1s Policies and Procedures


                   The SBA generally originated and closed 504 Recovery Act loans in accordance with
                                                         2
                   established policies and procedures. However, we identified origination and closing
                   deficiencies in six percent of the randomly selected loans reviewed. These deficiencies
                   resulted in inappropriate or unsupported loan approvals of approximately $414,000 of
                   the $25,826,000 approvals in our sample. All three loans with inappropriate or
                   unsupported loan approvals were made using the Abridged Submission Method (ASM)
                   and were approved by the SBA.

                   In addition, one loan reviewed in our judgmental sample of all ten loans involving
                   refinancing, also had origination and closing problems. This loan resulted in an
                   unsupported loan approval of $1,147,000. We also identified one instance of a
                   suspicious act that was unrelated to our audit objective, which has been referred to our
                   Investigations Division.

                   Specifically, for the three loans with deficiencies, the SBA: (1) accepted an inaccurate
                   repayment ability analysis, (2) allowed a collateral shortfall, and (3) mistakenly classified
                   the business as existing rather than new which resulted in an insufficient amount of
                   equity being required. Further, one loan from our judgmental sample also had


2	   SBA's SOP 50 10 5, Lender and Development Company Loan Programs, contains the requirements for lenders
     and CDCs to participate in SBA lending programs with different levels of SBA delegation.

                                                        7

questionable repayment projections. In accordance with the Improper Payments
Elimination and Recovery Act of 2010 (lPERA), the SBA is required to report to Congress
on its estimate of improper payments in the 504 Loan Program. Pursuant to IPERA,
inappropriate or unsupported loan approvals are considered improper payments.
Examples of the deficiencies are further outlined below.

The SBA Approved Two Loans that Lacked Creditworthiness

One of the loans reviewed in our sample lacked creditworthiness due to an inaccurate
repayment ability analysis. The SBA's SOP 50 10 5 requires the CDCs to perform a
financial analysis of repayment ability. This analysis should be based on historical
income statements and/or tax returns (if an existing business) and projections, including
the reasonableness of supporting assumptions. In addition, the applicant must exhibit a
strong consistent cash flow that is sufficient to cover the debt. According to Chapter 13
Code of Federal Regulations (CFR) 120.150, the loan applicant must be creditworthy and
the loans must be so sound as to reasonably assure repayment. In determining the
creditworthiness, the SBA will consider: (a) character, reputation, and credit history of
the applicant, it's associates and guarantors; (b) experience and depth of management;
(c) strength of business; (d) past earnings, projected cash flow, and future prospects; (e)
ability to repay the loan; (f) sufficient invested equity to operate on a sound financial
basis; (g) potential for long-term success; (h) nature and value of collateral; and (i) the
effect any affiliates may have on the ultimate repayment ability of the applicant.

We reviewed a loan, approved for $150,000, to a start-up business in Utah for which
the CDC calculated the repayment ability based on the historical operations of two
affiliated businesses located in Nevada. Although the affiliates' consolidated cash flow
was sufficient to cover the debt service on the subject property, both affiliates were
well-established businesses incorporated in 2002, and were located over an hour away
from the start-up business. It does not appear reasonable to assume the newly
established business would operate at the same capacity of the existing businesses.
In addition, our review of this loan did not identify any supporting analysis for how the
new business would achieve a similar level of sales as the existing businesses. Further, it
did not appear that any consideration was given to allow for a ramp up period for the
new business to achieve that same level of sales.

In addition, 110an reviewed in our judgmental sample of all 10 loans involving
refinancing, also had questionable repayment projections. This loan was approved for
$1,147,000. The interim financials for this business did not support first year
projections. They showed a negative Debt Service Coverage Ratio (DSCR) in 2009, the
year the loan was made, and there were no underlying assumptions for the projections.
The business would have needed a drastic increase in sales in order to break even.
Therefore, it does not appear to be reasonable to assume the business would have been
able to achieve these increased sales in 2009 and meet even higher projections in year
two, 2010.




                                    8
The SBA Approved a Loan with a Collateral Shortfall

Another loan in our sample, approved for $161,000, had insufficient collateral coverage.
According to the SBA's SOP 50 10 5,

        the SBA's second lien position will be considered adequate when the applicant
        meets all of the following criteria: a strong consistent cash flow that is sufficient
        to cover the debt; demonstrated and proven management; the applicant
        business has been in operation for more than two years; and the proposed
        project is a logical extension of the applicant's current operations.

If one or more of the four criteria is not met, additional collateral and/or increased
equity contributions may be required.

The SBA's second lien position was not adequate for this loan because the applicant
business had been in operation for less than two years and therefore, did not meet all of
the required criteria in SOP 50 10 5 to accept a second lien position. In addition, there
was no equity in SBA's second lien position because the liquidation value of the material
and equipment was $222,900 and the first lien position was $225,000. Nevertheless,
neither the CDC nor the SBA required additional collateral. Furthermore, an increased
equity contribution was also not required. Our review of the loan file did not identify
any analysis by the lender to determine if other collateral was available. If additional
collateral was available, we believe it should have been taken to secure this loan to a
new business.

The SBA Approved a Loan as an Existing Business Instead of As a New Business
Transaction Resulting in an Insufficient Equity Contribution

Both the CDC and the SBA mistakenly classified a fourth loan, approved for $103,000, as
an existing business transaction, instead of being correctly identified as a new business
transaction. As a result, the SBA did not require a sufficient equity contribution.
According to SOP 50 105, a new business is described as one that is less than two years
old at the time the loan is approved. This includes a change of ownership because it will
result in new, unproven ownership and/or management and increased debt unrelated
to business operations. In addition, the SOP requires a lO-percent equity contribution
for an existing business, and a 15-percent equity contribution for a new business or
limited/special purpose property. The borrower of this loan had been operating a take­
out restaurant/deli at a gas station convenience store and he purchased a full-service
restaurant. In doing so, he sold his existing business to fund the purchase of a new one.
This should be considered a change of ownership because an existing business was sold
to a new owner who now operates the restaurant under the same name.
The misclassification of this borrower as an existing business rather than a new business
allowed the borrower to contribute an equity contribution of lO-percent, or $12,750,
less than the required 15-percent contribution.




                                     9
Conclusion

The SBA generally originated and closed 504 Recovery Act loans in accordance with SBA
policies and procedures. However, our audit results show that a small number of
inappropriate or unsupported 504 loan approvals did occur. To prevent the occurrence
of similar deficiencies in other SBA-approved 504 loans, the SBA will need to determine
how the deficiencies occurred and provide feedback to SBA loan officers. Furthermore,
as inappropriate or unsupported loan approvals are considered improper payments in
accordance with the Improper Payments Elimination and Recovery Act of 2010, the SBA
will need to ensure an accurate improper payment rate is reported in future years.

Recommendations

We recommend that the Director of the Office of Financial Program Operations:

        1. 	 Determine how the deficiencies in the four SBA-approved loans occurred and
             take corrective action to prevent the occurrence of similar deficiencies in
             other SBA-approved 504 loans.

        2. 	 Provide feedback to the SBA loan officers who approved the 504 loans-in
             which deficiencies were identified-to prevent similar issues in the approval
             of other 504 loans.

        3. 	 Notify the Improper Payment Review Team of the improper 504 loan
             guaranties identified during this audit to ensure the proper estimation of
             improper payments in the 504 Loan Program.




                                   10
Agency Comments and Office of Inspector General Response

On August 17, 2012, we provided a draft of this report to the Director, Office of
Financial Assistance and the Director, Office of Financial Program Operations for
comment. On September 20, 2012, the Director, Office of Financial Program Operations
submitted formal comments which are included in their entirety in Appendix VI.
A summary of management's comments and our response follows.

Recommendation 1

Determine how the deficiencies in the four SBA-approved loans occurred and take
corrective action to prevent the occurrence of similar deficiencies in other SBA-approved
504 loans.

Management Comments

The Office of Financial Program Operations (OFPO) partially agreed with this
recommendation. It did not agree that two of the four loans were inappropriate or
unsupported approvals. The OFPO will follow the recommendation for the remaining
two loans and provide their analysis on all four loans and the proposed corrective
actions to the OIG by October 31, 2012.

OIG Response

Management's comments were responsive to the recommendation. We continue to
support our conclusion that all four loans represented inappropriate or unsupported
approvals. We will work with the OFPO during the audit follow-up process to ensure
corrective actions are taken to fully resolve this recommendation.

Recommendation 2

Provide feedback to the SBA loan officers who approved the 504 loans-in which
deficiencies were identified-to prevent similar issues in the approval of other 504 loans.

Management Comments

The OFPO concurred with this recommendation and said that the loan officers involved
with these loans have been notified. In addition, the Sacramento Loan Processing
Center has increased its credit training and will continue to mentor loan officers and
improve their credit analysis skills. This training will be completed by
December 15, 2012.


OIG Response

Management's comments were responsive to the recommendation.




                                   11 

Recommendation 3

Notify the Improper Payment Review Team of the improper 504 loan guaranties
identified during this audit to ensure the proper estimation of improper payments in the
504 Loan Program.

Management Comments

The OFPO concurred with this recommendation and said that they will issue a
memorandum to the Improper Payment Review Team and include a copy of the final
audit report along with a copy of the OFPO analysis on the four loans by
December 15, 2012.



OIG Response

Management's comments were responsive to the recommendation.




                                   12
Appendix I: Scope and Methodology

To answer our audit objective, we identified a universe of 1,141 Recovery Act Loans approved between 

June 1, 2009 and January 31, 2010 with at least one disbursement as of January 31, 2010. 

We judgmentally selected and examined all ten loans involving refinancing from the universe of 1,141 

loans. We then selected a random sample of 50 loans from the remaining 1,131 loans. 


The fieldwork was performed by RER Solutions, Inc., (RER) under contract with the OIG, with oversight 

and follow-up by the OIG. The contractor reviewed Small Business Administration (SBA) loan files using 

a standard OIG review methodology that we prepared based on applicable Standard Operating 

Procedures. For all loans examined, RER also reviewed information in Colson's Services Corporation CDC 

Connection and SBA's Electronic Loan Information Processing System (ELlPS) to determine the status of 

the loans in the sample. We also interviewed SBA's Directors of the Fresno and Little Rock Servicing 

Centers; the Director of the Sacramento Loan Processing Center; and the Director, Office of Financial 

Program Operations. 


Prior Coverage

During the past 5 years, the GAO issued one report pertaining to SBA's oversight of the 504 program.
In addition, the SBA OIG issued two reports.

GAO Report (s)

Shear, W. (2009). Small Business Administration's Implementation of Administrative Provisions in the
American Recovery and Reinvestment Act. GAO-09-507R, April 16, 2009.

SBA OIG Reports

SBA OIG (2009). SBA-Serviced Liquidation of Certified Development Company Loans, Report
Number 09-11. March 3D, 2009.

SBA OIG (2010). Audit of Premier Certified Lenders in the Section 504 Loan Program, Report
Number 10-10. March 23, 2010.




                                                  13
Appendix II Randomly Sampled Loans


     Loan Number   Loan Name                               Approval Date   Approval Amount
1    3702875003    ADVINTAGE WINE AND DISTRIBUTION         10/20/2009      $396,000
2    3643695007    A.C.T. HOME CARE INC.                   9/21/2009       263,000
3    3692755008    SILVER SPOON ENTERPRISES INC            10/14/2009      164,000
4    3555095004    CHICKEN SCRATCH AT CALERA INC.          8/4/2009        693,000
5    3521335006    ALICE NAIL LLC                          7/16/2009       104,000
6    3509715010    JOHNSON R.V. SALES                      7/10/2009       1,025,000
7    3543825001    CENTRAL ILLINOIS COURIER INC.           7/29/2009       198,000
8    3468115010    BRANDON V. CUCCIA D.D.S.                6/16/2009       288,000
9    3487945007    AGGREGATE CRUSHER SPECIALISTS           6/26/2009       633,000
10   3487845001    THE MELTAWAY CREAMERY AND SAND          6/26/2009       133,000
11   3477715004    BOUCHER'S FOOD SERVICES INC.            6/22/2009       103,000
12   3522905002    ENTERPRISE VALLEY PHYSICAL THERAPY      7/17/2009       150,000
13   3446645004    LOST RECOVERY INC.                      6/2/2009        176,000
14   3480945004    BILL'S TOWING AND AUTO REPAIR LLC       6/23/2009       714,000
15   3559415001    THE PARTNERSHIP CENTER LTD              8/6/2009        114,000
16   3490205009    COMFORT INN                             6/29/2009       1,513,000
17   3604935004    TRAFFIC MASTERS INC.                    8/31/2009       106,000
18   3671665006    BOWEN CONSTRUCTION CO INC.              9/30/2009       66,000
19   3633235005    SMALL BAR                               9/15/2009       382,000
20   3719175001    MURRAY HAMPTON INN                      10/28/2009      1,500,000
21   3465475007    ELAN INTERNATIONAL INC.                 6/15/2009       496,000
22   3565045004    MADIGAN PRATI & ASSOCIATES INC.         8/11/2009       168,000
23   3455905001    CENTRAL ALUMINUM SUPPLY CORP            6/8/2009        245,000
24   3666005002    R.A.H. INDUSTRIES INC.                  9/29/2009       3,334,000
25   3482795000    EVS NEW HAMPSHIRE INC.                  6/24/2009       474,000
26   3620705005    HERITAGE CROSSINGS                      9/8/2009        335,000
27   3521615007    CLEAR VIEW WINDOWS INC.                 7/16/2009       214,000
28   3610625001    TEQUIPMENT INC.                         9/2/2009        1,337,000
29   3543815009    THE WATERFORD INN                       7/29/2009       478,000
30   3476905000    SNIPPERS INC.                           6/22/2009       51,000
31   3653665002    PADILLA & GARCIA PC                     9/24/2009       82,000
32   3452135000    SECRET RECIPES RECEPTION CENTER         6/4/2009        184,000
33   3473945006    CYCLE VISIONS                           6/18/2009       388,000
34   3481315005    LYNDEN LUBE & AUTO                      6/24/2009       294,000
35   3586835004    CASA LATINA BAKERY                      8/20/2009       $486,000
36   3584245000    PHOENIX RECYCLING TECHNOLOGIES          8/19/2009       797,000
37   3655055000    CNA ENTERTAINMENT INC.                  9/24/2009       589,000
38   3697545003    POUCH CONVERTING TECHNOLOGIES           10/16/2009      161,000
39   3687385010    JEFFREY ELENBERGER D.D.S.               10/9/2009       313,000
40   3584615004    NICK'S INN 62 INC.                      8/20/2009       126,000
41   3552295010    MODERN RECOVERY & REMARKETING           8/3/2009        244,000
42   3462695008    CONCESSION SPECIALISTS INC.             6/11/2009       127,000
43   3646725009    RAY'S APPLE MARKET                      9/22/2009       900,000
44   3500975000    WASH TIME EXPRESS INC.                  7/7/2009        750,000
45   3490125009    GH FOODS LLC                            6/29/2009       2,409,000
46   3639375002    PACIFIC LIGHT FINANCIAL & INVEST        9/17/2009       91,000
47   3453185006    SDA DENTAL GROUP LLC                    6/5/2009        539,000
48   3464815000    BROADWAY CHIROPRACTIC P.S.              6/12/2009       189,000
49   3624735000    X-PRESS ENTERPRISES LLC                 9/10/2009       456,000
50   3645845008    PROFESSIONAL PHYSICAL THERAPY           9/21/2009       848,000
                   Total                                                   $25,826,000



                                                    14 

Appendix III: Judgmentally Sampled Loans




                       Loan         Loan Name                        Approval
                       Number                          Approval     Amount
                                                       Date
                  1    3448675006   JOHNSON'S          6/3/2009     $440,000
                                    MEDICAL INC.
                  2    3559615002   SHERMAN            8/6/2009     1,147,000
                                    MECHANCIAL
                                    INC.
                  3    3572425009   STL OFFICE         8/13/2009    1,803,000
                                    SOLUTIONS
                                    INC.
                  4    3582505002   ACCURATE           8/19/2009    386,000
                                    MEASUREMENT
                                    CONTROLS INC.
                  5    3634365000   PARKE HOTEL $      9/16/2009    3,520,000
                                    CONFERENCE
                                    CENTER,LLC
                  6    3643265007   ELEMENT            9/20/2009    305,000
                                    CREATIVE, LLC
                  7    3646875008   PLEASANT           9/22/2009    293,000
                                    VALLEY
                                    DENTAL
                  8    3659255009   SPLASH &           9/26/2009    1,208,000
                                    DASH INC.
                  9    3666885008   MIDWEST            9/29/2009    335,000
                                    TWISTERS
                                    GYM.
                                    ACADEMY INC
                  10   3698825006   MOONEY             10/16/2009   1,467,000
                                    FARMS
                                    Total                           $10,904,000




                                                15 

Appendix IV: Loans with Deficiencies

   Loan Number            Deficiency                   JudgmentallRandom   Loan Approval
                                                                           Amount
                          Lacked creditworthiness      Random
         [Ex. 4]          due to inaccurate                                   [Ex. 4]
                          repayment ability analysis
                          Questionable repayment       Judgmental             [Ex. 4]
         [Ex. 4]
                          projections
                          Loan approved with           Random                  [Ex. 4]
         [Ex. 4]
                          collateral shortfall
          [Ex. 4]         Insufficient equity          Random                  [Ex. 4]
                          contribution
                          TOTAL                                            $1,561,000




                                                16 

Appendix V: Management Comments




       ~
   :):'t':               ~'G>                         U.S. SMALL BUSINESS ADMINISTRATION 

  *                           *                               WASHINGTON, D.C. 20416 

  ~                       ~
       ~h.   1953 	 .."....                                            MEMORANDUM
         'v IST\""
                                                                      September 20,2012

To: 	                             John Needham
                                  Assistant Inspector General for Auditing


From: 	                           John A. Miller
                                  Director, Office of Financial Program Operations

Subject: 	                        Response to Draft Report on the 504 Recovery Act Loans Were Originated and Closed in
                                  Accordance with SBA Policies, Project No. 10505C

Thank you for the opportunity to review the draft audit report. We appreciate the role the Office of
Inspector General (OIG) plays in assisting management in ensuring that these programs are effectively
managed.

The OIG report concluded that SBA generally processed and approved 504 Recovery Act loans in
accordance with SBA policies and procedures. This is a very positive report of the quality work
conducted at the SBA's Sacramento Loan Processing Center (SLPC). OIG sampled 50 randomly selected
and 10 judgmentally selected loans approved between June 1, 2009 and January 31, 2010. Of the
randomly selected and judgmentally selected loans, OIG stated that a small number of inappropriate or
unsupported 504 loan approvals occurred.

The Office of Financial Program Operations, which oversees the SLPC, agrees with the OIG on two of the
four approvals cited in the report as inappropriate or unsupported. Please note that all four loans are
current and there is no indication at this time that any of the four loans noted above will not continue to
perform.

OFPO's response to the recommendations in the draft report is as follows:

1. 	          Determine how the deficiencies in the four SBA-approved loans occurred and take corrective
              action to prevent the occurrence of similar deficiencies in other SBA-approved 504 loans.

              Because OFPO believes that two of the four loans were not inappropriate or unsupported
              approvals, OFPO partially concurs with this recommendation as and will follow the
              recommendation for the remaining two loans. OFPO will provide its analysis on all four loans
              and its proposed corrective actions to OIG by October 31, 2012.


                                                                     17
2. 	    Provide feedback to the SBA loan officers who approved the 504 loans-in which deficiencies
        were identified-to prevent similar issues in the approval of other 504 loans.

        OFPO concurs with this recommendation. The loan officers involved have been notified. It
        should also be noted that the SLPC has increased its credit training and will continue to mentor
        loan officers and improve their credit analysis skills. The training will be completed by December
        15,2012.

3. 	    Notify the Improper Payment Review Team of the improper 504 loan guaranties identified
        during this audit to ensure the proper estimation of improper payments in the 504 Loan
        Program.

        OFPO concurs with this recommendation and will issue a memorandum to the Improper
        Payment Review Team and include a copy of the final audit along with a copy of the OFPO
        analysis on the four loans by December 15, 2012.

Again, thank you for the opportunity to review the draft report. Please let us know if you need
additional information or have any questions regarding our response.




                                                   18 

